                 The Return Delinquency Notice Program
                Could Be Used More Effectively to Promote
                Filing Compliance and Reduce the Tax Gap

                                    August 2004

                       Reference Number: 2004-30-127




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       August 18, 2004


       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION
                      COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - The Return Delinquency Notice Program
                                     Could Be Used More Effectively to Promote Filing Compliance
                                     and Reduce the Tax Gap (Audit # 200230037)


       This report presents the results of our review of the Return Delinquency Notice
       Program. The overall objective of this review was to determine whether the Return
       Delinquency Notice Program in the Compliance Services Collection Operations
       (CSCO)1 function is effectively designed, managed, and operated to achieve the desired
       program results and to promote compliance with Federal tax laws.
       In summary, the Internal Revenue Service (IRS) has implemented or undertaken
       several initiatives in recent years to improve filing compliance with the goal of closing
       more return delinquency cases through efficiency improvements.2 At the same time,
       however, the IRS has faced the significant challenge of working an increasing inventory
       of nonfiled returns with fewer resources. The number of potential individual nonfiler
       cases identified by the IRS increased from 6.1 million for Tax Year (TY) 1994 to
       8.9 million for TY 2001,3 while the amount of resources applied to the Return
       Delinquency Notice Program has moved in the opposite direction. Although the IRS


       1
         The CSCO (formerly called the Service Center Collection Branch) handles taxpayer responses to return
       delinquency notices. Those cases that are not resolved may be referred to the Automated Substitute for Return
       Program, the Automated Collection System, or the Collection Field function for further action. Appendix V of the
       report contains a Glossary of Terms.
       2
         The scope of this audit did not include determining the effect of the IRS organizational modernization on the
       Return Delinquency Notice Program.
       3
         In discussing a draft of this report, IRS management advised that an additional 2.5 million low priority cases were
       inadvertently included in the TY 2001 nonfiler inventory from which work was ultimately selected.
                                                       2

has begun to reverse this trend, the overall reduction in resources is particularly evident
when comparing the Full-Time Equivalents (FTE) applied in Fiscal Year (FY) 2002 to
FY 1997 FTE levels. During this 6-year period, the FTEs applied by the CSCO to
working taxpayer responses to return delinquency notices declined by 50 percent.4
Primarily because of these declining resources, the ability of the Return Delinquency
Notice Program to effectively promote filing compliance and maximize tax collections
has been significantly affected. One impact of the declining resources is that the
number of potential individual nonfilers identified by the IRS that are not sent a return
delinquency notice increased from about 4.8 million for TY 1994 to 6.7 million for
TY 2001. More than 1.1 million of these 6.7 million unworked TY 2001 cases were from
various selection code categories that could have been expected to produce an average
net tax due per return ranging from $518 to $5,309. The total potential net tax value of
these cases was more than $1 billion. Another impact of the declining resources is that
only about 1.9 million of the 2.7 million taxpayers who were sent return delinquency
notices in FY 2003 received further IRS compliance treatments if the nonfiling situation
was unresolved. Also, the number of individual returns secured during FY 2002 was
only 51 percent of the number secured during the FY 1999 peak performance year.
We identified two opportunities to use the IRS’ limited resources in a more efficient
manner. First, the high work priority assigned to return delinquency cases involving
Federal Government employees or retirees5 prevents the IRS from fully addressing
other categories of nonfiler cases that offer greater potential for maximizing tax
collections. While the IRS generally sets its nonfiler workload by selection categories
that represent the greatest risk for filing and payment noncompliance, an exception to
this rule is made for Federal Employees/Retirees Delinquency Initiative (FERDI) cases.
The reason for this is because of the sensitivity for Federal Government employees and
retirees to meet their ethical and legal tax obligations.6 As a result, IRS procedures
require that all FERDI cases identified be given the full range of compliance treatments.
For TY 2001, the IRS identified and worked almost 109,000 FERDI cases that produced
an average net tax due7 per return of $772.8 If the resources used on the TY 2002
FERDI cases selected by the Wage and Investment (W&I) Division had been applied to
the same number of nonfiler cases that were not worked from other, more productive,
nonfiler selection categories (which produced an average net tax due ranging from $970
to $1,352 for TY 2001), total net taxes due could have been potentially increased by
over $87.3 million.



4
  The scope of this review was limited to CSCO operations that comprise only one segment of the total FTEs the
IRS applies to various nonfiler programs.
5
  The IRS began the Federal Employees/Retirees Delinquency Initiative in 1993 to address noncompliance with
Federal tax laws by Federal Government employees and retirees.
6
  5 C.F.R. Part 2535.101 (b) (12) Oct. 2, 2002.
7
  Net tax due represents tax, penalty, and interest assessments less prepaid credits.
8
  Weighted average based on 10,216 cases completed by the Small Business/Self-Employed Division that produced
an average net tax due per return of $1,819, and 17,127 cases completed by the Wage and Investment Division that
produced an average net tax due per return of $148.
                                                          3

One problem with Federal Government agencies addressing their employees with
Federal tax problems is the IRS is legally prevented from sharing information on Federal
tax delinquencies involving Federal Government employees with the employing
agencies. As a result, Federal Government agencies, other than the IRS, are unaware
when their employees are not in compliance with Federal Government ethical standards
that require the filing and payment of Federal taxes.
Second, at the time we completed our review, the IRS may not have been realizing the
full potential of the Refund Hold Program9 as a tool for encouraging taxpayers to file
delinquent returns. For TY 2001, refunds totaling an estimated $51.3 million were
released on more than 11,000 cases after the freeze period expired without securing
delinquent returns or determining that the delinquent returns involved no tax liability. In
discussing a draft of this report, IRS management advised that criteria existed to limit
taxpayer burden and release refunds based on taxpayer hardship and declared
disasters. Although it is unknown how many of the 11,000 TY 2001 refunds were
released because of these criteria, IRS management believes the number was
substantial due to the terrorist attacks that occurred on September 11, 2001. Because
of declining resources, the IRS has increased its administrative dollar tolerance for
identifying refund hold cases by more than 600 percent since the Program was started
in 1993. For TY 1999, the IRS increased its administrative dollar tolerance for refund
hold cases by nearly 70 percent. This caused the number of refund hold cases to
decline from 125,974 for TY 1998 to 59,316 for TY 199910 and contributed to a decline
in the number of delinquent returns secured through the Refund Hold Program from
58,850 for TY 1998 to 36,736 for TY 1999. For TY 2000, the IRS again increased its
administrative tolerance by an additional 300 percent.
The IRS has made significant changes to the Refund Hold Program since we completed
our review. In discussing a draft of this report, IRS management advised that both the
Small Business/Self-Employed (SB/SE) and W&I Divisions began working the Refund
Hold Program as the top priority in the Automated Substitute for Return (ASFR)
Program in January 2004. In addition to helping ensure all cases meeting refund hold
criteria are worked, this change also allows the IRS to resolve the refund during the
freeze period by offsetting it to liabilities on the delinquent return or applying it to the
proposed deficiency when a Statutory Notice of Deficiency is issued. In addition, the
SB/SE Division has also centralized its Refund Hold Program into one campus location
to increase efficiency.
Since the IRS FY 2004 budget proposal for the Return Delinquency Notice Program
provided for additional FTEs, we made no formal recommendations to address the


9
  The Refund Hold Program identifies individual taxpayers that have filed a current year tax return entitling them to
a refund but have not filed tax returns for a previous tax year for which the IRS has third-party information
documents (e.g., Wage and Tax Statement (Form W-2)) indicating that a tax liability may exist that is equal to or
greater than the refund amount. The IRS freezes the issuance of the current year refund for a specified time period
while it attempts to resolve the prior year tax return delinquency.
10
   In discussing a draft of this report, IRS management stated that the number of selected refund hold cases may or
may not be affected by the increase in the administrative tolerance.
                                             4

declining resources. To address the FERDI cases that pose minimal risks for payment
noncompliance, we recommended that the Commissioner, W&I Division, replace the
IRS’ policy of working all FERDI cases with a risk-based approach that applies tailored
compliance treatments based on the potential taxes due. We also recommended that
the Commissioners, SB/SE and W&I Divisions, coordinate with the Office of
Government Ethics (OGE) and the Office of Management and Budget (OMB) to explore
the potential of developing better approaches for ensuring that Federal Government
employees are held more accountable for filing all required Federal tax returns. To
further improve the effectiveness of the Refund Hold Program for protecting tax revenue
and closing the return filing gap, we recommended the Commissioners, SB/SE and
W&I Divisions, consider reevaluating the administrative dollar tolerance for freezing
refunds to determine if it can be reset at a lower level, given the available resources,
now that the Refund Hold Program is being worked as part of the ASFR Program. We
also recommended expanding the management information reports for the Refund Hold
Program to provide data for measuring program effectiveness and results and for
setting workload selection tolerance levels.
Management’s Response: The Commissioner, SB/SE Division, provided a detailed
response that disagreed with our recommendations pertaining to the FERDI Program.
However, the Commissioner, SB/SE Division, agreed with our recommendations to
reevaluate the dollar tolerance for freezing refunds and expand the management
information reports for the Refund Hold Program.
While the Commissioner, SB/SE Division, believes there is considerable merit to our
recommendation to subject FERDI cases to a risk-based approach, the IRS has taken
steps to improve the efficiency and effectiveness of the FERDI Program, and other
factors, such as public policy and public confidence in tax administration, outweigh
revenue potential as determinative factors in whether to work these cases. The
Commissioner, SB/SE Division, stated the Congress and the general public expect a
higher degree of compliance among Federal employees and advised that failure to
address noncompliance in the FERDI population undermines public confidence in the
IRS’ ability to administer the tax laws fairly and effectively. The adoption of a risk-based
approach would selectively target specific segments of the FERDI population, which
could result in adverse public criticism of the IRS’ enforcement efforts while resulting in
a negative impact on overall compliance.
The Commissioner, SB/SE Division, did not concur with our estimate that total net taxes
due could have been potentially increased by over $87.3 million by reapplying the
resources used to work certain TY 2002 FERDI cases. The Commissioner, SB/SE
Division, stated the projection is based on the premise that all FERDI inventory is low
yielding and advised that the W&I Division currently uses the Collection Optimum
Potential Yield Score (COPYS) as a risk-based approach for case selection. As part of
the case creation process, a COPYS is computed to provide a ranking mechanism to
stratify and select nonfiler work. Cases with higher COPYSs are more likely to result in
a higher net tax due than cases with lower COPYSs. The Commissioner, SB/SE
                                                             5

Division, stated over 75 percent of the FERDI cases met the criteria as higher-yield
cases and these cases would have been selected over other non-FERDI cases.
The Commissioner, SB/SE Division, advised that, as noted in our report, Internal
Revenue Code (I.R.C.) § 6103 (2003) does not allow the IRS to disclose specific
employee tax delinquency information to other agencies so that they may effectuate
appropriate disciplinary action under Government-wide ethics regulations. Therefore,
while the IRS can work with the OGE and OMB to identify other approaches for holding
Federal employees more accountable, the IRS’ inability to disclose employee-specific
tax information to other agencies constrains its ability to effectuate any disciplinary
action for failing to meet new accountability requirements. The IRS does share general
statistics with agencies each year regarding the compliance rates of their employees
and will continue to explore opportunities to further improve compliance within the
FERDI population. The Commissioner, SB/SE Division, stated it was important to note
that as of October 2003, the overall FERDI noncompliance rate was 3.06 percent, down
from 3.47 percent in the previous year. Management’s complete response to the draft
report is included as Appendix VI.
Office of Audit Comments: We continue to believe our recommendations relative to the
FERDI Program have merit. The SB/SE Division Commissioner’s position that “public
policy and public confidence in tax administration outweigh revenue potential as
determinative factors in whether to work these cases” represents a departure from the
IRS’ recent efforts in this area. Due in part to the use of several new risk-based criteria,
for example, the average net tax due for FERDI cases increased from a $649 refund in
TY 1998 to a balance due of $148 for W&I Division cases and a balance due of $1,819
for SB/SE Division cases in TY 2001. One new initiative was to select only those cases
that have the potential to exceed a specific net tax due threshold amount. In addition,
the SB/SE Division incorporated a filter into the return delinquency case creation
process that eliminated those FERDI cases that were “predicted” to be not liable.
Regarding the SB/SE Division Commissioner’s concern that the adoption of a
risk-based approach would selectively target specific segments of the FERDI population
and could result in adverse public criticism of the IRS’ enforcement efforts while
resulting in a negative impact on overall compliance, we believe that using a risk-based
approach to select FERDI nonfiler cases for compliance enforcement treatment would
allow the IRS to apply some type of notice treatment to all FERDI cases while reserving
the most intensive compliance treatments for those FERDI cases that represent the
most egregious type of nonfiler. Given its scarce resources, the IRS’ current practice of
applying its most intensive compliance treatments to thousands of low dollar FERDI
cases invites, in our opinion, public criticism of its decision-making process, especially
at a time when the tax gap11 exceeds $300 billion. Also, the comprehensive pursuit of
low dollar cases raises concerns about the fairness and cost-effectiveness of this policy.
Our estimate concerning additional tax revenue was based on the average net tax due
of $148 yielded by 17,127 FERDI closures, or 24 percent of the W&I Division’s total

11
     The difference between total tax liability and the taxes paid voluntarily and timely.
                                           6

TY 2001 FERDI inventory. If the majority of these cases met the IRS’ criteria as higher
yield cases that would have been worked regardless of their selection category, as the
SB/SE Division Commissioner states in the response, it raises questions about the
effectiveness of the COPYS as a risk-based approach for return delinquency case
selection. It also raises questions about whether more than 75 percent of the
W&I Division’s FERDI cases were actually high yielding cases.
We are pleased the IRS will continue to explore opportunities to improve compliance
among the FERDI population. While the SB/SE Division Commissioner noted that the
overall FERDI noncompliance rate has improved, it is also important to note that the
number of nonfiler FERDI cases has grown from 106,566 for TY 2000 to 116,064 in
TY 2002. We believe this continued growth in the number of nonfilers among the
FERDI population underscores the need for new approaches in dealing with this
customer segment. However, we doubt that significant improvement can be realized as
long as active Federal employees can continue to escape disciplinary action because
their noncompliance is hidden from their employing agencies by the privacy laws. In
working with the OGE and OMB to identify approaches for holding Federal employees
more accountable, we encourage the IRS to determine whether there is support for
changing I.R.C. § 6103 to allow the IRS to share Federal employee tax delinquency
information with the employing agencies.
While we still believe all of our recommendations are worthwhile, we do not intend to
elevate our disagreement concerning them to the Department of the Treasury for
resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Philip
Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (215) 516-2341.
       The Return Delinquency Notice Program Could Be Used More Effectively to
                  Promote Filing Compliance and Reduce the Tax Gap




                                                  Table of Contents


Background ............................................................................................... Page 1
Ongoing Efforts to Improve the Return Delinquency Notice Program
May Be Negated by Declining Resources ................................................. Page 2
Changes Are Needed in Working Return Delinquency Cases
Involving Federal Government Employees and Annuitants ....................... Page 13
         Recommendation 1: ...................................................................... Page 19
         Recommendation 2: ...................................................................... Page 21

Recent Improvements to the Refund Hold Program May Present
Opportunities for Increased Revenue Protection by Lowering the
Administrative Dollar Tolerance................................................................. Page 23
         Recommendations 3 and 4: .......................................................... Page 28

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 30
Appendix II – Major Contributors to This Report........................................ Page 32
Appendix III – Report Distribution List ....................................................... Page 33
Appendix IV – Outcome Measures ............................................................ Page 34
Appendix V – Glossary of Terms ............................................................... Page 37
Appendix VI – Management’s Response to the Draft Report .................... Page 39
     The Return Delinquency Notice Program Could Be Used More Effectively to
                Promote Filing Compliance and Reduce the Tax Gap

                                Taxpayers that fail to file income tax returns when required
Background
                                pose a serious threat to voluntary compliance. Nonfilers
                                impair tax administration and undermine public confidence
                                in the fairness of the system, and the population of nonfilers
                                is growing. For Tax Year (TY) 1992, the Internal Revenue
                                Service (IRS) estimated the nonfiler portion of the gross
                                individual tax gap1 was $10.2 billion. For TY 1998, the IRS
                                estimated the gross tax gap attributable to the nonfiling of
                                individual income tax returns was $22.6 billion.
                                The IRS must proactively identify and investigate
                                potentially nonfiled returns to maintain public confidence in
                                the voluntary tax system and to ensure the tax laws are
                                applied fairly to all taxpayers. The mission of the IRS’
                                nonfiler program is to ensure taxpayers that are legally
                                required to file do so and to address those individuals that
                                are not required to file but may be due refunds or credits.
                                The Return Delinquency Notice Program identifies
                                individual and business taxpayers that may not have filed
                                tax returns. The IRS uses risk assessment tools in the return
                                delinquency case creation and treatment decision processes
                                to identify and work the most serious types of filing
                                noncompliance. The responsibility for administering the
                                Return Delinquency Notice Program for individual
                                taxpayers is shared by the Small Business/Self-Employed
                                (SB/SE) and Wage and Investment (W&I) Divisions. The
                                Return Delinquency Notice Program for business taxpayers
                                is the responsibility of the SB/SE Division. For TY 2001,2
                                the IRS identified approximately 8.9 million individual
                                nonfilers.
                                In recent years, the Government Accountability Office
                                (GAO)3 has expressed concern with the decline in various
                                IRS compliance programs. In one report,4 the GAO noted
                                that between 1996 and 2001, these programs generally


                                1
                                  The difference between total tax liability and the taxes paid voluntarily
                                and timely. The IRS made no estimate of the tax gap attributable to the
                                nonfiling of business returns.
                                2
                                  The TY 2001 return delinquency cases were processed in
                                Fiscal Year 2003.
                                3
                                  Formerly the General Accounting Office.
                                4
                                  Major Management Challenges and Program Risks: Department of
                                the Treasury (GAO-03-109, dated January 2003).
                                                                                                   Page 1
      The Return Delinquency Notice Program Could Be Used More Effectively to
                 Promote Filing Compliance and Reduce the Tax Gap

                                 experienced larger workloads, reduced staffing, and fewer
                                 numbers of cases closed per employee. Another GAO
                                 report5 stated that some available, but very limited, data
                                 suggest that voluntary compliance may have begun to
                                 deteriorate. This report noted the number of apparent
                                 individual nonfilers had increased about 3.5 times faster
                                 than the individual tax filing population.
                                 To perform this audit, we interviewed IRS managers and
                                 program analysts and reviewed management information
                                 system reports and other documentation related to return
                                 filing compliance. Some of the data used in this report
                                 came from various IRS reports. We did not verify the
                                 accuracy of the information from those sources. This
                                 review was performed during the period January through
                                 June 2003 at the SB/SE and W&I Division offices in
                                 New Carrollton, Maryland. We performed additional
                                 analyses during the period April through June 2004 to
                                 include new information provided by the IRS in response to
                                 a draft of this report. The audit was performed in
                                 accordance with Government Auditing Standards. Detailed
                                 information on our audit objective, scope, and methodology
                                 is presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II. A Glossary of Terms is provided
                                 in Appendix V.
                                 At the time we completed this review, the IRS had
Ongoing Efforts to Improve the
                                 implemented or was undertaking several initiatives to
Return Delinquency Notice
                                 improve filing compliance with the goal of closing more
Program May Be Negated by
                                 return delinquency cases through efficiency improvements.
Declining Resources
                                 These initiatives included:
                                 •   Analyzing the use of various filters in the return
                                     delinquency work selection process in order to focus
                                     limited resources on the most productive cases.




                                 5
                                  Tax Administration: Impact of Compliance and Collection Program
                                 Declines on Taxpayers (GAO-02-674, dated May 2002).
                                                                                            Page 2
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           •   Incorporating income from Schedule K-16 cases into the
                               return delinquency selection process.
                           •   Performing delinquency checks for corporate returns
                               later in the return delinquency process to avoid working
                               unproductive cases, since IRS studies have found these
                               taxpayers have a tendency to file their tax returns late.
                           •   Expanding and centralizing the work process for
                               individual Automated Substitute for Return (ASFR)
                               Program cases to improve efficiency and increase
                               collections. A study found 60 percent of taxpayers
                               whose nonfiler cases are worked in the ASFR Program
                               timely file their tax returns in the subsequent year.
                           •   Centralizing the work process for 6020(b)7 Program
                               cases.
                           •   Incorporating balanced measures into the return
                               delinquency process. The measurements will include
                               quantity measures, quality measures, and a new
                               customer service satisfaction survey. The balanced
                               measures are expected to be operational in Fiscal
                               Year (FY) 2004.
                           Reduced resources have limited the effectiveness of the
                           Return Delinquency Notice Program
                           The IRS does not have the resources to address every
                           identified case of potential taxpayer noncompliance and,
                           therefore, must apply its limited resources to areas in which
                           noncompliance is greatest, while still maintaining adequate
                           coverage in other areas. When budget cuts are required




                           6
                             Partner’s Share of Income, Credits, Deductions, etc. (Schedule K-1) is
                           used to show each partner’s share of the income from a partnership.
                           Shareholder’s Share of Income, Credits, Deductions, etc. Schedule K-1
                           is used to show each shareholder’s share of the income from a
                           Subchapter S corporation.
                           7
                             Internal Revenue Code (I. R. C.) § 6020(b) (2000) gives the IRS the
                           authority to prepare and process returns for nonfiling taxpayers. The
                           6020(b) Program prepares and processes Employer’s Quarterly Federal
                           Tax Return (Form 941) or Employer’s Annual Federal Unemployment
                           Tax Return (From 940).
                                                                                            Page 3
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           (e.g., the FY 2003 shortfall8), the Return Delinquency
                           Notice Program traditionally is one of the compliance
                           programs affected. The Return Delinquency Notice
                           Program is vulnerable to staffing cuts since the IRS can
                           limit the number of cases selected to match the resources
                           available to work them.
                           In recent years, the Return Delinquency Notice Program has
                           faced the challenge of having fewer resources to work the
                           significantly increasing inventory of nonfiled returns.
                           Management has attempted to meet this challenge by
                           refining the case selection process and matching selections
                           to resources. Figure 1 shows the number of Full-Time
                           Equivalents (FTE) applied by the Compliance Services
                           Collection Operations (CSCO)9 to working taxpayer
                           responses to return delinquency notices from FY 1997
                           through FY 2002. While the number of FTEs applied in
                           FY 2002 was only 50 percent of the number applied in
                           FY 1997, it represented an increase from FY 2001.
                           Although FTE data for FY 2003 was not available at the
                           time we completed our review, IRS management advised
                           during the discussion of this report that 138 FTEs had been
                           applied, thereby continuing the recent upward trend.




                           8
                             The IRS’ FY 2003 budget shortfall was caused by an unfunded
                           increase in the FY 2002 annual employee pay raise; postage increases
                           above initial budget projections; and an unfunded increase in security
                           costs after the September 11, 2001, terrorist attacks.
                           9
                             The CSCO was formerly called the Service Center Collection Branch.
                                                                                          Page 4
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                         Figure 1: Direct FTEs Realized by the CSCO for the
                                                Return Delinquency Notice Program10
                                                           FYs 1997 – 2002


                                                  250


                                                  200




                                 Number of FTEs
                                                  150


                                                  100


                                                   50


                                                    0
                                                        1997 1998 1999 2000 2001 2002

                                                               Fiscal Year

                           Source: IRS SB/SE Division.
                           While compliance treatments are increasing, they have
                           not kept pace with the growth in nonfilings
                           Identifying potential nonfilers is the first step in the Return
                           Delinquency Notice Program. For individual taxpayers,
                           potentially nonfiled returns are primarily identified by using
                           computer programs that match data on information returns11
                           with the IRS records of filed tax returns. Based on the
                           predominate type of income or the nature of the case, each
                           potential nonfiler case is assigned to one of several selection
                           codes that determines the risk level of the case and the type
                           of compliance action to be taken. The range of compliance
                           treatment actions for individual nonfiler cases includes:
                           •    Taxpayer Delinquency Investigation (TDI) – Taxpayers
                                are mailed two return delinquency notices requesting
                                that they file their tax returns or explain why they are


                           10
                              The data represents FTEs allocated by both the SB/SE and W&I
                           Divisions.
                           11
                              Employers, financial institutions, and other business entities are
                           required to submit information returns to the IRS reporting wages,
                           interest, dividends, nonemployee compensation, and other types of
                           income.
                                                                                              Page 5
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                               not liable to file. Tax examiners in the CSCO process
                               the responses to return delinquency notices. Those cases
                               that are not resolved through the notice process may be
                               referred to the ASFR Program, the Automated
                               Collection System, or the Collection Field function for
                               further compliance action.
                           •   Primary Code B (PC-B) – Taxpayers are mailed one
                               return delinquency notice. No further action is taken on
                               these cases if the taxpayers do not respond to the notice
                               or satisfactorily resolve the nonfiling condition.
                           •   Taxpayers are not contacted at all.
                           The number of return delinquency notices sent by the IRS is
                           constrained by the available CSCO FTEs to work the related
                           taxpayer correspondence. Figure 2 shows that while the
                           total growth in individual nonfiler cases from TYs 1994
                           to 2001 (the last year for which data were available at the
                           time we completed our review) has been substantial, the
                           number of potential nonfilers that received return
                           delinquency notices from the IRS has fluctuated. While the
                           number of notices sent the last 2 years was near the highest
                           level attained in 1996, the data shows that, overall, an
                           increasing number of potential nonfilers have not received
                           return delinquency notices from the IRS.




                                                                                  Page 6
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                    Figure 2: Potential Individual Nonfilers Receiving
                                       Return Delinquency Notices from the IRS12
                                                   TYs 1994 – 200113


                                                                  NONF I LER CA SES

                                                      10

                                                       8




                                           Millions
                                                       6

                                                       4

                                                       2

                                                       0
                                     Tax Ye ar
                                                           1994 1995 1996 1997 1998 1999 2000 2001

                                     Nonfiler s Not        4.8   4.6   4.9   5.6   6.2   6.9   6.7   6.7
                                     Sent Notices
                                     Nonfiler s Sent       1.3   1.9   2.3   1.9   1.3   1.4   2.0   2.2
                                     Notices



                           Source: IRS Potential Nonfiler Data Files.

                           The data for this 8-year period shows that:
                           •    The total number of potential individual nonfiler cases
                                identified by the IRS increased by 46 percent from
                                TY 1994 to TY 2001.
                           •    The percentage of the potential individual nonfilers that
                                received return delinquency notices from the IRS



                           12
                              The data in this table represent return delinquency notices sent to
                           individual (including self-employed) taxpayers only. Return
                           delinquency activity involving other types of taxpayers (e.g., corporate,
                           partnership) was outside the scope of this review.
                           13
                              In discussing a draft of this report, IRS management advised that
                           exact year-to-year comparisons cannot be made because the
                           identification process can change on a yearly basis. IRS management
                           also stated that an additional 2.5 million low priority cases were
                           inadvertently included in the TY 2001 nonfiler inventory from which
                           work was ultimately selected. These cases are not reflected in the above
                           graph.
                                                                                                     Page 7
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                               declined from 32 percent for TY 1996 to only 25 percent
                               for TY 2001.
                           •   The number of potential individual nonfilers that
                               received no return delinquency notices from the IRS
                               increased from about 4.8 million for TY 1994 to about
                               6.7 million for TY 2001.
                           The IRS applies case creation criteria to prioritize the
                           inventory of identified nonfilers. The IRS works those
                           cases that are judged to have the best potential to result in
                           significant net taxes due. Therefore, many of the 6.7 million
                           individual nonfiler cases for TY 2001 that were not sent
                           return delinquency notices were considered low priority
                           cases.
                           However, Table 1 shows that there were more than
                           1.1 million TY 2001 nonfiler cases that were not worked
                           from various selection code categories that could have been
                           expected to produce an average net tax due per return
                           ranging from $518 to $5,309. The total potential net tax
                           value of these cases was more than $1 billion.




                                                                                 Page 8
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                Table 1: Potential Net Tax Value of Certain Nonfiler Cases That
                                                 Were Not Worked (TY 2001)
                              Case        Number of     Number of      Average      Potential Net
                            Selection       Cases       Cases Not      Net Tax      Tax Value of
                              Code         Worked        Worked        Due Per       Cases Not
                                                                       Return         Worked
                                  (A)         (B)           (C)          (D)14          (C) X (D)
                                  04         10,930        1,557        $5,309      $     8,266,113
                                  10         44,259        42,543       $2,959      $ 125,884,737
                                  09        594,448        77,860       $2,726      $ 212,246,360
                                  16         21,335         9,136       $2,104      $    19,222,144
                                  13        544,693      305,229        $1,028      $ 313,775,412
                                  14          4,631      683,078        $ 518       $ 353,834,404
                                 Totals   1,220,296      1,119,403                  $1,033,229,170
                           Source: Treasury Inspector General for Tax Administration (TIGTA)
                           Analysis of TY 2001 Nonfiler Inventory Selection Code Selections.

                           While the number of return delinquency notices issued by
                           the IRS has increased for the most recent tax years that were
                           available at the time we completed our review, Figure 3
                           shows that an increasing percentage of the taxpayers sent
                           return delinquency notices met PC-B treatment criteria. The
                           use of the PC-B treatment allows the IRS to send return
                           delinquency notices to larger numbers of lower priority
                           nonfilers while, at the same time, conserving scarce IRS
                           resources. However, the PC-B treatment criteria also means
                           that no further compliance actions are taken by the IRS if
                           the taxpayers do not respond to the notices or otherwise
                           satisfactorily resolve their nonfiling conditions.




                           14
                             The average net tax due per return is based on the IRS Nonfiler
                           Effectiveness Reports for TY 1997 through TY 2000, cycle 200026.
                           The TY 2000 data reflected only partial results since only about
                           50 percent of the notices had been issued. The net tax due amounts are
                           the average of 2, 3, or 4 years of results, although some selection codes
                           did not have case selections each year.
                                                                                             Page 9
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                           Figure 3: Type of Individual Return Delinquency Notice
                                                               FYs 1998 – 2003

                                                            Number of Notices

                                                                                             864
                                            3,000




                               Thousands
                                                      0
                                            2,500                                    542
                                                              0
                                            2,000
                                                                       0     100
                                            1,500
                                            1,000
                                                    2,314
                                                             1,891                           1,864
                                                                     1,251   1,271   1,421
                                              500
                                                0
                                                    1998     1999    2000    2001    2002    2003
                                                                     Fiscal Year

                                                      TDI FIRST NOTICES       PC-B FIRST NOTICES


                           Source: IRS Collection Activity Report (CAR) 5000-4.

                           The data for this 6-year period show:
                           •      The number of return delinquency notices sent to
                                  potential individual nonfilers that met TDI treatment
                                  criteria declined from more than 2.3 million for FY 1998
                                  to less than 1.3 million for both FYs 2000 and 2001.
                           •      The downward trend in the total number of return
                                  delinquency notices sent was reversed starting in
                                  FY 2001. The number of return delinquency notices
                                  that met TDI treatment criteria had increased to almost
                                  1.9 million for FY 2003, but it was still only 81 percent
                                  of the FY 1998 level.
                           •      Most of the increase in return delinquency notices sent
                                  for FYs 2002 and 2003 involved nonfiler cases that met
                                  PC-B treatment criteria. About 864,000 (32 percent) of
                                  the approximately 2.7 million return delinquency notices
                                  sent for FY 2003 met PC-B treatment criteria. This
                                  means only 68 percent of the 2.7 million nonfilers that
                                  were sent notices received further IRS treatments if their
                                  nonfiling situations continued to be unresolved.
                           We were advised that, for FYs 1998 - 2000, PC-B notices
                           were not sent to taxpayers because IRS management at that
                           time was not comfortable with sending taxpayers only one
                                                                                               Page 10
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           notice and not following up when appropriate with
                           additional compliance actions. In discussing a draft of this
                           report with IRS management, they advised that a
                           W&I Division analysis revealed that prior selections were
                           systemically closed due to resource constraints and that the
                           W&I Division chose to increase PC-Bs to “treat” a higher
                           volume of nonfilers with at least one notice.
                           The number of returns secured has significantly
                           declined since FY 1999
                           According to several IRS managers we interviewed, the
                           number of returns secured is a key measurement of success
                           for the Return Delinquency Notice Program. Despite the
                           increasing number of nonfiled returns identified by the IRS,
                           Figure 4 shows that the number of individual income tax
                           returns secured by return delinquency notices in
                           FYs 2000 – 2002 was substantially lower than during recent
                           peak performance years.
                           In discussing a draft of this report, IRS management stated
                           that year-to-year comparisons of the number of returns
                           secured is not a valid measurement of the “effectiveness” of
                           the Return Delinquency Notice Program because the
                           number of returns secured is related to the number of
                           notices sent. Therefore, the decline in return delinquency
                           notices sent for FYs 2000 and 2001 (as shown in Figure 3)
                           significantly contributed, in all likelihood, to the decline in
                           returns secured.




                                                                                  Page 11
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                            Figure 4: Individual Income Tax Returns Secured by
                                                        Return Delinquency Notices
                                                              FYs 1997 – 2002


                                                          Returns Secured

                                           400                   356




                               Thousands
                                                         322
                                           350   288
                                           300
                                                                          234
                                           250
                                                                                  177     182
                                           200
                                           150
                                           100
                                           50
                                            0
                                                 1997    1998    1999     2000    2001    2002
                                                                  Fiscal Year

                           Source: IRS CAR 5000-3.

                           The data for the 6-year period shows that:
                           •           The number of delinquent individual returns secured by
                                       delinquency notices in FY 2002 was only 51 percent of
                                       the number secured in FY 1999. The decline in
                                       delinquent returns secured in FYs 2000 - 2002 was
                                       directly related to fewer notices mailed to taxpayers (see
                                       Figure 3).
                           •           During both FYs 1999 and 2000, delinquent returns
                                       secured, as a percentage of the number of taxpayers sent
                                       return delinquency notices, was 19 percent. In
                                       FYs 2001 and 2002, the rate of returns secured declined
                                       to 13 percent and 9 percent, respectively. The reduced
                                       percentage of returns secured in FYs 2001 and 2002
                                       may have been attributable to the fact that
                                       approximately 7 percent of the notices sent in FY 2001
                                       and almost 28 percent of the notices sent in FY 2002
                                       were PC-Bs. This meant these taxpayers received no
                                       further compliance treatments if their nonfiling
                                       condition was unresolved as a result of the return
                                       delinquency notice.



                                                                                            Page 12
      The Return Delinquency Notice Program Could Be Used More Effectively to
                 Promote Filing Compliance and Reduce the Tax Gap

                                 Increased funding is needed to keep pace with nonfiled
                                 returns
                                 While the various initiatives underway may improve the
                                 efficiency of the return delinquency process, we believe it is
                                 likely the IRS will continue to face enormous challenges in
                                 closing the filing compliance gap unless additional
                                 resources are made available. The IRS managers we
                                 interviewed had no readily available data on the number of
                                 additional FTEs that would be needed to effectively close
                                 the noncompliance filing gap. Some of the IRS managers
                                 stated a reasonable level of voluntary filing compliance
                                 could be achieved if the FTEs allocated to the Return
                                 Delinquency Notice Program were restored to the level
                                 realized in the mid-1990s.
                                 Since the IRS FY 2004 budget proposal for the Return
                                 Delinquency Notice Program provided for additional FTEs,
                                 we are making no formal recommendations. The IRS
                                 Oversight Board has also been supportive of the initiative to
                                 increase Return Delinquency Notice Program funding.
                                 Executive Orders 1122215 and 1273116 and Office of
Changes Are Needed in
                                 Government Ethics (OGE) regulations require Federal
Working Return Delinquency
                                 Government employees to satisfy all of their just financial
Cases Involving Federal
                                 obligations, especially those such as Federal, state, and local
Government Employees and
                                 taxes imposed by law. In 1992, the Office of Management
Annuitants
                                 and Budget (OMB) proposed legislation to require the IRS
                                 to annually determine whether any Federal Government
                                 employees were delinquent with Federal tax filing and
                                 payment requirements and to take appropriate follow-up
                                 action.
                                 Although the OMB’s proposed legislation was never
                                 enacted, the IRS quickly moved forward to implement
                                 policy, procedural, and system changes in January 1993 to
                                 identify and address tax delinquencies involving Federal
                                 Government employees and annuitants. These changes
                                 became known as the Federal Employees/Retirees



                                 15
                                    Standards of Ethical Conduct for Government Officers and
                                 Employees, dated May 8, 1965.
                                 16
                                    Principles of Ethical Conduct for Government Officers and
                                 Employees, dated October 6, 1990.
                                                                                                Page 13
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           Delinquency Initiative (FERDI).17 As part of the FERDI,
                           the IRS performs an annual computer match of its filing and
                           payment records to identify noncompliant Federal
                           Government employees and retirees.
                           Working all FERDI cases may divert resources from
                           more productive return delinquency cases
                           Generally, the IRS prioritizes its nonfiler workload by
                           selection categories that represent the greatest risk for filing
                           and payment noncompliance. An exception to this general
                           rule is made for FERDI cases because of the sensitivity for
                           Federal Government employees and retirees to meet their
                           ethical and legal tax obligations.
                           Since the inception of the FERDI, IRS procedures have
                           prevented the tax delinquency cases identified involving
                           Federal Government employees or retirees from being
                           placed in a nonwork status. In other words, the IRS works
                           all of the FERDI cases identified regardless of the amount
                           of taxes owed or, in the case of nonfiled tax returns, the
                           potential amount of taxes owed. The IRS gives each FERDI
                           case its full range of compliance treatments, including return
                           delinquency notices, TDIs, and ASFR Program assessments.
                           The IRS identified and worked 108,987 FERDI return
                           delinquency cases for TY 2001. Through January 6, 2004,
                           the IRS had completed more than 27,000 of these cases.
                           The results suggest that all FERDI cases do not warrant the
                           high-work priority the IRS assigns to this nonfiler segment.
                           In particular, Table 2 shows that the 17,127 TY 2001
                           FERDI nonfiler cases closed by the W&I Division resulted
                           in an average net tax due18 per return of only $148.




                           17
                              The FERDI includes both active and retired civil service and military
                           employees.
                           18
                              Net tax due represents tax, penalty, and interest assessments less
                           prepaid credits.
                                                                                          Page 14
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                 Table 2: TY 2001 FERDI Cases Completed by the IRS
                            Business   Number      Total Net Tax    Average Net    Number of
                            Division   of Cases        Due           Tax Due         Cases
                                       Selected                     Per Return     Completed
                             SB/SE       35,113     $18,581,941        $1,819        10,216
                              W&I        73,874     $ 2,526,780        $ 148         17,127
                              Total     108,987     $21,108,721        $ 772         27,343
                           Source: SB/SE and W&I TY 2001 Nonfiler Inventory Selection Reports
                           and IRS Nonfiler Effectiveness Reports (January 6, 2004).

                           By working all FERDI nonfiler cases regardless of the
                           potential tax consequences, the IRS is using resources that,
                           in some cases, could be more productively used to address
                           other categories of nonfiler cases involving significantly
                           larger potential net tax due amounts that are not being
                           worked.
                           For example, Table 3 shows the W&I Division did not work
                           nearly 1 million TY 2001 return delinquency cases from
                           2 other nonfiler selection categories that resulted in an
                           average net tax due per return ranging from $808 to $970.
                           Both were significantly larger than the average net tax due
                           per return of $148 produced by the 17,127 TY 2001 FERDI
                           cases completed by the W&I Division.




                                                                                     Page 15
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                            Table 3. W&I Return Delinquency Cases Not Worked by the IRS
                              That Were Potentially More Productive Than FERDI Cases19
                                                      TY 2001
                              Case       Average     Number       Number of         Potential
                            Selection    Net Tax     of Cases        Cases           Value of
                              Code       Due Per     Worked       Not Worked        Cases Not
                                         Return                                      Worked
                                           (A)                         (B)          (A) X (B)
                                 14       $970          4,631        683,078       $662,585,660
                                 13       $808        544,693        305,229       $246,625,032
                                Totals                549,324        988,307       $909,210,692

                           Source: TIGTA analysis of W&I TY 2001 Nonfiler Inventory Selection
                           Report and IRS Nonfiler Effectiveness Report (January 6, 2004).

                           The potential opportunity costs of working all FERDI cases
                           are significant. For TY 2001, if the IRS had worked
                           73,874 more cases from Selection Code 14, in lieu of the
                           73,874 FERDI cases worked by the W&I Division that
                           produced an average of only $148 per case,20 an additional
                           $60.7 million in tax revenue may have been realized.
                           The potential opportunity costs of working all TY 2002
                           FERDI cases may have been considerably higher. While
                           the W&I Division selected and worked 75,228 TY 2002
                           FERDI cases, Table 4 shows the W&I Division did not
                           work a like number of TY 2002 return delinquency cases
                           from other selection categories that could have been
                           expected to produce, based on TY 2001 results, significantly
                           higher tax revenue than the W&I Division FERDI cases.




                           19
                              In addition to the cases not worked shown in Table 2, there were an
                           additional 131,096 TY 2001 return delinquency cases that were not
                           worked from 4 other selection codes that, for TY 1999, had produced an
                           average net tax due per return ranging from $2,104 to $5,309. However,
                           IRS management stated that the resources required to work the FERDI
                           inventory had no impact on the decision not to work these cases and that
                           the W&I Division did not work them because the cases were in
                           SB/SE Division campuses.
                           20
                              The average net tax due of $148 per case is based on the 17,127 cases
                           closed by the W&I Division through January 6, 2004. In discussing a
                           draft of this report, IRS management advised that these closures may not
                           include “hard core” cases that require enforcement action.
                                                                                         Page 16
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                              Table 4. Return Delinquency Cases Not Worked by the IRS
                           That Were Potentially More Productive Than W&I Division FERDI
                                                   Cases – TY 2002
                              Case       Average      Number of      Number of          Potential
                            Selection    Net Tax        Cases          Cases             Value of
                              Code       Due Per       Worked           Not             Cases Not
                                         Return                       Worked             Worked
                                           (A)                          (B)             (A) X (B)
                                 09       $1,352         338,767        66,762      $ 90,262,224
                                 14       $ 970                 0      778,300      $754,951,000
                                 04       $ 895           54,559          2,984     $    2,670,680
                                 13       $ 808          757,449            789     $      637,512
                                Total                  1,150,775       848,835      $848,521,416
                           Source: TIGTA Analysis of IRS TY 2001 Nonfiler Effectiveness Report
                           (January 6, 2004) and W&I Division TY 2002 Nonfiler Inventory
                           Selection Report.

                           If the IRS had worked 75,228 of these cases in lieu of the
                           same number of W&I Division FERDI cases, an additional
                           $87.3 million in tax revenue may have been realized.21 See
                           Appendix IV for details.
                           The heart of the issue with working FERDI cases involves
                           balancing conflicting priorities to achieve the appropriate
                           administration of the tax laws. When the FERDI tax policy
                           was implemented in the 1990s, the amount of IRS resources
                           allocated to working return delinquency cases was
                           significantly larger than it is today. For example, the IRS
                           Collection function expended about 1.1 million direct hours
                           on nonfiler activities in FY 1993 as compared to only
                           453,000 direct hours in FY 2002. As fewer FTEs have been
                           allocated to the Return Delinquency Notice Program over
                           the years, the issue of working nonfiler cases with lower
                           risks for tax payment noncompliance has become much
                           larger, since the IRS currently does not have the resources to
                           work all return delinquency cases that involve significantly
                           more potential tax revenue than W&I Division FERDI
                           cases.

                           21
                             Potential tax value of the cases not worked less the actual tax value of
                           the FERDI cases that were worked. Assumes that the TY 2002 FERDI
                           cases worked by the IRS will produce the same average next tax due per
                           return as the TY 2001 FERDI cases.
                                                                                            Page 17
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           IRS actions alone have not been sufficient to ensure
                           compliance with ethics guidelines and reduce nonfiler
                           cases involving Federal Government employees
                           As of September 30, 2000,22 approximately 423,000 Federal
                           Government employees and annuitants owed $2.5 billion in
                           delinquent taxes. This represented an increase of
                           approximately $200 million in delinquent Federal taxes over
                           the 1997 annual match. Twenty percent of these
                           423,000 taxpayers were nonfilers. The IRS identified and
                           worked 106,566 FERDI return delinquency cases for
                           TY 2000, 108,987 cases for TY 2001, and 116,064 cases for
                           TY 2002. These data suggest that the IRS’ longstanding
                           policy of working all FERDI cases is not enough to reduce
                           nonfiling among this customer segment and that additional
                           measures are needed.
                           Although Federal Government employee compliance
                           with tax laws is required by Federal policy, the IRS
                           cannot share tax delinquency information on specific
                           Federal Government employees with their employing
                           agencies because of privacy restrictions contained in
                           I.R.C. § 6103 (2003). On at least two prior occasions, in
                           1993 and 1998, the OMB and IRS proposed changes to
                           existing laws that would have allowed more information
                           sharing by Federal Government agencies. These proposals,
                           which covered a broad range of issues, were never enacted
                           into law.
                           Other than the IRS, which has its own Employee Tax
                           Compliance Program, Federal Government agencies are not
                           aware when their employees are not compliant with
                           standards of ethical conduct requiring the filing and
                           payment of Federal taxes. Because tax delinquency
                           information is not shared with the employing agency,
                           Federal Government employees that fail to meet their
                           ethical responsibilities to file and pay their Federal taxes do
                           so with limited fear of any administrative or disciplinary
                           actions from their employing agency.



                           22
                             IRS study, Profiling Tax Delinquency of Federal Employees and
                           Retirees, FERDI 2000 Final Report, Project #2-00-02-3-004, dated
                           August 2002.
                                                                                       Page 18
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           Achieving an appropriate balance between Federal
                           Government employees’ privacy rights and their ethical
                           responsibility to file and pay Federal taxes is a significant
                           policy challenge. The employee/taxpayer privacy rights
                           currently outweigh the agencies’ right to know about tax
                           delinquencies involving their employees. As a result,
                           Federal Government agencies do not have information
                           available to them to enforce the ethical standards requiring
                           all Federal Government employees to file and pay their
                           taxes. Intervention by the employing agencies to address
                           Federal tax noncompliance by their employees could
                           complement actions taken by the IRS and have a positive
                           impact on reducing the number of FERDI cases the IRS
                           annually identifies.

                           Recommendations

                           We believe the IRS needs to continue to ensure its own
                           employees fully comply with Federal, state, and local filing
                           requirements. To ensure other FERDI nonfiler cases receive
                           compliance treatments that are consistent with the risks they
                           pose to balanced tax administration and appropriate given
                           the IRS’ limited resources, and to increase the effectiveness
                           of the FERDI for reducing tax noncompliance among
                           Federal Government employees, the Commissioner,
                           W&I Division, should:
                           1. Replace the IRS’ policy of working all FERDI return
                              delinquency cases with a risk-based approach that
                              applies tailored compliance treatments to the cases based
                              on the potential taxes due.
                           Management’s Response: The Commissioner, SB/SE
                           Division, stated the IRS does not plan to pursue this
                           recommendation at this time. While the Commissioner,
                           SB/SE Division, believes there is considerable merit to our
                           recommendation to subject FERDI cases to a risk-based
                           approach, the IRS has taken steps to improve the efficiency
                           and effectiveness of the FERDI Program, and other factors,
                           such as public policy and public confidence in tax
                           administration, outweigh revenue potential as determinative
                           factors in whether to work these cases. The Commissioner,
                           SB/SE Division, stated the Congress and the general public
                           expect a higher degree of compliance among Federal
                                                                                  Page 19
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           employees and advised that failure to address
                           noncompliance in the FERDI population undermines public
                           confidence in the IRS’ ability to administer the tax laws
                           fairly and effectively. The adoption of a risk-based
                           approach would selectively target specific segments of the
                           FERDI population, which could result in adverse public
                           criticism of the IRS’ enforcement efforts while resulting in a
                           negative impact on overall compliance.
                           The Commissioner, SB/SE Division, also did not concur
                           with our estimate that total net taxes due could have been
                           potentially increased by over $87.3 million by reapplying
                           the resources used to work certain TY 2002 FERDI cases.
                           The Commissioner, SB/SE Division, stated the projection is
                           based on the premise that all FERDI inventory is low
                           yielding and advised that the W&I Division currently uses
                           the Collection Optimum Potential Yield Score (COPYS) as
                           a risk-based approach for case selection. As part of the case
                           creation process, a COPYS is computed to provide a
                           ranking mechanism to stratify and select nonfiler work.
                           Cases with higher COPYSs are more likely to result in a
                           higher net tax due than cases with lower COPYSs. The
                           Commissioner, SB/SE Division, stated over 75 percent of
                           the FERDI cases met the criteria as higher-yield cases and
                           these cases would have been selected over other non-FERDI
                           cases.
                           Office of Audit Comments: We continue to believe our
                           recommendation has merit. The SB/SE Division
                           Commissioner’s position that “public policy and public
                           confidence in tax administration outweigh revenue potential
                           as determinative factors in whether to work these cases”
                           represents a departure from the IRS’ recent efforts in this
                           area. For TY 1998, when all FERDI cases were worked, the
                           average result was a $649 refund. For TY 2001, the average
                           net tax due for FERDI cases increased to a balance due of
                           $148 for W&I Division cases and $1,819 for SB/SE
                           Division cases due, in part, to the use of several new
                           risk-based criteria. One initiative was to select only those
                           cases that have the potential to exceed a specific net tax due
                           threshold amount. In addition, the SB/SE Division
                           incorporated a filter into the return delinquency case
                           creation process that eliminated those FERDI cases that
                           were “predicted” to be not liable.
                                                                                 Page 20
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           Regarding the SB/SE Division Commissioner’s concern that
                           the adoption of a risk-based approach would selectively
                           target specific segments of the FERDI population and could
                           result in adverse public criticism of the Service’s
                           enforcement efforts while resulting in a negative impact on
                           overall compliance, we believe that using a risk-based
                           approach to select nonfiler cases for compliance
                           enforcement treatment would allow the IRS to apply some
                           type of notice treatment to all FERDI cases while reserving
                           the most intensive compliance treatments for those FERDI
                           cases that represent the most egregious type of nonfiler.
                           Given its scarce resources, the IRS’ current practice of
                           applying its most intensive compliance treatments to
                           thousands of low dollar cases invites, in our opinion, public
                           criticism of its decision-making process, especially at a time
                           when the tax gap exceeds $300 billion. Also, the
                           comprehensive pursuit of low dollar cases raises concerns
                           about the fairness and cost-effectiveness of this policy.
                           Our estimate of the additional tax revenue that could be
                           realized by diverting resources used by the W&I Division to
                           work its TY 2002 FERDI inventory was based on the
                           average net tax due of $148 yielded by the W&I Division’s
                           TY 2001 FERDI cases. This $148 average yield is based on
                           17,127 closures, or 24 percent of the W&I Division’s total
                           FERDI inventory of 70,148 cases. If the majority of these
                           cases met the IRS’ criteria as higher yield cases that would
                           have been worked regardless of their selection category, as
                           the SB/SE Division Commissioner states in the response, it
                           raises questions about the effectiveness of the COPYS score
                           as a risk-based approach for return delinquency case
                           selection. It also raises questions about whether more than
                           75 percent of the W&I Division’s FERDI cases were
                           actually high yielding cases.
                           2. Coordinate with OGE and OMB officials to explore the
                              potential of developing better approaches for ensuring
                              that Federal Government employees are held more
                              accountable for filing all required Federal tax returns.
                           Management’s Response: The Commissioner, SB/SE
                           Division, stated the IRS does not plan to pursue this
                           recommendation at this time. The Commissioner, SB/SE
                           Division, advised, as noted in our report, that I.R.C. § 6103

                                                                                 Page 21
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           does not allow the IRS to disclose specific employee tax
                           delinquency information to other agencies so that they
                           may effectuate appropriate disciplinary action under
                           Government-wide ethics regulations. Therefore, while the
                           IRS can work with the OGE and OMB to identify other
                           approaches for holding Federal employees more
                           accountable, the IRS’ inability to disclose employee-specific
                           tax information to other agencies constrains its ability to
                           effectuate any disciplinary action for failing to meet new
                           accountability requirements. The IRS does share general
                           statistics with agencies each year regarding the compliance
                           rates of their employees and will continue to explore
                           opportunities to further improve compliance within the
                           FERDI population. The Commissioner, SB/SE Division,
                           stated it was important to note that as of October 2003, the
                           overall FERDI noncompliance rate was 3.06 percent, down
                           from 3.47 percent in the previous year.
                           Office of Audit Comments: We are pleased the IRS will
                           continue to explore opportunities to improve compliance
                           with the FERDI population. While the Commissioner,
                           SB/SE Division, noted that the overall FERDI
                           noncompliance rate had improved, it is also important to
                           note that the number of FERDI nonfiler cases has grown
                           from 106,566 for TY 2000 to 116,064 in TY 2002. We
                           believe this continued growth in the number of nonfilers
                           among the FERDI population underscores the need for new
                           approaches in addressing this customer segment. However,
                           we doubt that significant improvement can be realized as
                           long as active Federal employees who do not fulfill their
                           ethical obligations to file tax returns can continue to escape
                           disciplinary action because their noncompliance is hidden
                           from their employing agencies by the privacy laws. In
                           working with the OGE and OMB to identify approaches for
                           holding Federal employees more accountable, we encourage
                           the IRS to determine whether there is support for changing
                           I.R.C. § 6103 to allow the IRS to share Federal employee
                           tax delinquency information with the employing agencies.




                                                                                 Page 22
        The Return Delinquency Notice Program Could Be Used More Effectively to
                   Promote Filing Compliance and Reduce the Tax Gap

                                   The Refund Hold Program identifies individual taxpayers
Recent Improvements to the
                                   who have filed a current year tax return entitling them to a
Refund Hold Program May
                                   refund, but have not filed tax returns for a previous tax year
Present Opportunities for
                                   for which the IRS has third-party information documents23
Increased Revenue Protection by
                                   that indicate a tax liability may exist that is equal to or
Lowering the Administrative
                                   greater than the refund amount. The objective of the Refund
Dollar Tolerance
                                   Hold Program is to investigate return delinquencies and
                                   encourage taxpayer compliance through the withholding of
                                   current year tax refunds pending the filing of delinquent tax
                                   returns. The IRS freezes the issuance of the current year
                                   refund while it investigates the prior year tax return
                                   delinquency.
                                   At the time we completed our review, the IRS may not have
                                   been realizing the full potential of the Refund Hold Program
                                   as a compliance tool for encouraging taxpayers to file
                                   delinquent returns. Thousands of identified cases were not
                                   being resolved within the refund freeze period, resulting in
                                   millions of dollars in refunds being released to taxpayers
                                   who had not filed required tax returns or provided other
                                   documentation to resolve the nonfiling conditions. In
                                   addition, a decreasing number of cases were being identified
                                   for the Refund Hold Program because the IRS had increased
                                   its administrative dollar tolerance to accommodate its
                                   limited available resources.
                                   Figure 5 presents the Program results for the last 2 tax years
                                   available at the time we completed our review.




                                   23
                                     Information documents include the Wage and Tax Statement
                                   (Form W-2) for wages earned, Dividends and Distributions
                                   (Form 1099-DIV) for dividends earned, Interest Income
                                   (Form 1099-INT) for interest earned, and Miscellaneous Income
                                   (Form 1099-MISC) for nonemployee compensation.
                                                                                               Page 23
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                            Figure 5: Refund Hold Program Results24
                                                       TYs 2000 and 2001


                                                      Refund Hold Cases
                                Thousands
                                          60
                                          50




                                Cases
                                          40
                                          30
                                          20
                                          10
                                           0
                                                Refunds    Returns     Modules     Modules
                                                  Held     Secured      With       Without
                                                                       Closing     Closing
                                                                       Actions     Actions
                                        2000
                                        2001

                           Source: IRS SB/SE Division.

                           For TY 2001, the IRS held 58,176 refunds totaling almost
                           $270 million, an average of more than $4,600 per case. The
                           Program resulted in 34,958 delinquent returns being filed
                           (secured) and in other closing actions being taken on
                           another 12,163 delinquent tax modules. In addition to the
                           taxes offset by the held refunds, almost $1.9 million in taxes
                           was collected with the delinquent returns that were filed.
                           However, the IRS released the remaining 11,055 refunds
                           after the freeze period expired without securing delinquent
                           returns or determining that the delinquent returns involved
                           no tax liability. In discussing a draft of this report, IRS
                           management advised that criteria existed to limit taxpayer
                           burden and release refunds based on taxpayer hardship and
                           declared disasters. Although it is unknown how many of
                           the 11,055 TY 2001 refunds were released because of these
                           criteria, IRS management believes the number was
                           substantial due to the terrorist attacks that occurred on
                           September 11, 2001.



                           24
                            The Figure 5, Column 3, totals include 34,958 delinquent returns that
                           were filed and other closing actions on another 12,163 delinquent tax
                           modules. A module is a specific tax period within a taxpayer’s account.
                                                                                         Page 24
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           A comparison of the Program results for TY 2001 with
                           those for TY 2000 showed:
                                •   The number of refunds held increased by almost
                                    3 percent, from 56,506 to 58,176.
                                •   The number of delinquent returns secured increased
                                    by less than 1 percent, from 34,703 to 34,958.
                                •   The number of cases with successful closing actions
                                    (i.e., delinquent return secured or delinquent
                                    condition resolved) declined by almost 4 percent,
                                    from 49,052 to 47,121.
                                •   The number of cases with no successful closing
                                    actions during the refund freeze period increased by
                                    more than 48 percent, from 7,454 to 11,055.25 For
                                    each of these cases, the refunds were released to the
                                    taxpayers.
                           The IRS had no management information reports that
                           specifically showed the number or total dollar amount of
                           those refunds that were released after the freeze period
                           expired without successful resolution of the nonfiling
                           condition. Therefore, to arrive at an estimate of the total
                           refunds released by the IRS, we applied the average refund
                           amount of the TY 2001 refund hold cases ($4,639) to the
                           11,055 cases with no successful closing actions. This
                           approach suggests the IRS may have released refunds
                           totaling almost $51.3 million to taxpayers whose return
                           delinquencies were still unresolved. As shown in Figure 6,
                           this represented an increase of more than 60 percent from
                           the $31.9 million in refunds that may have been released for
                           TY 2000 on unresolved return delinquencies.




                           25
                             In discussing a draft of this report with SB/SE Division management,
                           they stated that inventory changes must be taken into account when
                           comparing year-to-year results. In their view, the number of cases with
                           no successful closing action increased by only 6 percent from TY 2000
                           (13 percent of refunds held) to 2001 (19 percent of refunds held).
                                                                                          Page 25
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                            Figure 6: Dollar Value of Refund Hold Cases26
                                                         FYs 2000 and 2001


                                                       Re f und Hol d Case s

                                           Millions
                                                 300
                                                                270
                                                 250      242

                                                 200


                                Dollars
                                                 150
                                                 100
                                                                                 51
                                                  50                        32

                                          2000     0
                                                       Frozen Credits   Possible Refunds
                                          2001                             Released


                           Source: IRS SB/SE Division.

                           The I.R.C. does not set a specific time period in which the
                           IRS must refund an overpayment.27 Under the Refund Hold
                           Program, the IRS freezes a refund for a specified time
                           period while it tries to resolve a nonfiling condition. At the
                           time we performed our review, the IRS was releasing
                           refunds after the freeze period expired if the taxpayers did
                           not respond to notices requesting that they file the prior year
                           returns or provide information to satisfactorily resolve the
                           return delinquency. Under these procedures, taxpayers were
                           sent their refunds even though they may not have been
                           cooperating with the IRS to resolve their nonfiling
                           condition.




                           26
                              This chart does not necessarily represent the actual dollar value of the
                           refunds released to taxpayers without successful resolution of the
                           nonfiling condition. Since the IRS had no data on the dollar value of the
                           refunds that were released, we had to assume, for illustrative purposes,
                           that the average refund amount of all frozen refunds was typical of those
                           that may have been released without resolution.
                           27
                              I.R.C. § 6611(e) (2000) requires the IRS to pay interest on the
                           overpayment when it does not issue a refund within 45 days of the
                           return due date or return received date, whichever is later.
                                                                                            Page 26
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           The IRS has made significant changes to the Refund
                           Hold Program
                           In discussing a draft of this report, IRS management advised
                           that the SB/SE and W&I Divisions both began working the
                           Refund Hold Program as the top priority in the ASFR
                           Program in January 2004. In addition to helping ensure all
                           cases meeting refund hold criteria are worked, ASFR
                           guidelines allow the IRS to resolve the refund by offsetting
                           it to liabilities on the delinquent return or applying it to the
                           proposed deficiency when a Statutory Notice of Deficiency
                           is issued.
                           Since we completed our review, the SB/SE Division has
                           also centralized its Refund Hold Program into one campus28
                           location. In proposing this change, the Director, Filing
                           Compliance, SB/SE Division, stated the efficiency of the
                           Refund Hold Program would be increased by eliminating
                           the need for frequent reassignment of the cases between the
                           business operating divisions. The W&I Division is
                           currently working its Refund Hold Program at each of its
                           campus sites and may centralize the program at some point
                           in the future.
                           In our view, the above changes should strengthen the
                           Refund Hold Program to ensure that millions of dollars in
                           current-year tax refunds are not released without successful
                           resolution of the prior-year nonfiling conditions.
                           Lowering the administrative dollar tolerances for the
                           Refund Hold Program would present opportunities for
                           increased revenue protection
                           The organizational efficiency gained by the IRS as a result
                           of the recent changes to the Refund Hold Program may
                           provide opportunities to identify more cases by lowering the
                           administrative dollar tolerances.
                           Since the Refund Hold Program was first implemented in
                           1993, the IRS has increased its administrative dollar
                           tolerance for identifying Refund Hold Program cases by
                           more than 600 percent to accommodate its limited available
                           resources. For TY 1999, the IRS increased its

                           28
                             A campus is an IRS location that houses customer service,
                           compliance, and returns processing functions.
                                                                                         Page 27
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           administrative dollar tolerance for refund hold cases by
                           nearly 70 percent. This caused the number of refund hold
                           cases to decline from 125,974 for TY 1998 to 59,316 for
                           TY 199929 and contributed to the number of delinquent
                           returns secured also declining from 58,850 for TY 1998 to
                           36,736 for TY 1999. For TY 2000, the IRS again increased
                           its administrative tolerance by an additional 300 percent.
                           We could not determine the exact number or dollar value of
                           potential refund hold cases that were not identified as a
                           result of these increases in the dollar tolerance because the
                           IRS had no management information reports that stratified
                           the number of potential refund hold cases by dollar range.
                           As a result, we cannot estimate the monetary effect of the
                           administrative tolerances on protecting tax revenues.

                           Recommendations

                           To further improve the effectiveness of the Refund Hold
                           Program for protecting tax revenue and closing the return
                           filing gap, the Commissioners, SB/SE and W&I Divisions,
                           should:
                           3. Reevaluate the administrative dollar tolerance for
                              freezing refunds to determine if it can be reset at a lower
                              level, given the available resources, now that the Refund
                              Hold Program is being worked as part of the ASFR
                              Program and has been centralized in one location by the
                              SB/SE Division.
                           Management’s Response: The Commissioner, SB/SE
                           Division, advised that the SB/SE and W&I Divisions will
                           reevaluate the administrative tolerance for freezing refunds.
                           4. Expand the management information reports to provide
                              data for measuring program effectiveness and results
                              and for setting workload selection tolerance levels.
                           Management’s Response: The Commissioner, SB/SE
                           Division, advised that revisions to the Refund Hold
                           management information reports are already in progress.


                           29
                             In discussing a draft of this report, IRS management stated that the
                           number of selected refund hold cases may or may not be affected by the
                           increase in the administrative tolerance.
                                                                                        Page 28
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                           The IRS is currently working to revise the ASFR
                           Management Information System report to include specific
                           Refund Hold data. This report will include information
                           regarding the dollar amounts offset due to potential liability,
                           releases, and the reason for those releases.




                                                                                  Page 29
         The Return Delinquency Notice Program Could Be Used More Effectively to
                    Promote Filing Compliance and Reduce the Tax Gap

                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of the audit was to determine whether the Return Delinquency Notice
Program is effectively designed, managed, and operated to achieve the desired program results
and to promote compliance with Federal tax laws. The audit was performed by interviewing
Internal Revenue Service (IRS) managers and program analysts and by reviewing and evaluating
management information system reports and other documentation related to return filing
compliance. Some of the data used in this report came from assorted IRS reports. We did not
verify the accuracy of that information. The audit focused on the individual nonfiler case
creation and compliance treatment process and the analysis of select statistical data for the
Compliance Services Collection Operations (CSCO).1 The audit did not evaluate the case
creation and compliance treatment process for business taxpayers, or detailed work processes for
the Automated Substitute for Return Program, Automated Collection System, Collection Field
function, 6020 (b) Program, Service Center Examination Branch, or Examination Area Office
programs due to time and resource constraints.
To accomplish our objective, we:
I.         Determined whether the IRS’ strategies, plans, policies, procedures, and controls were
           effectively designed to direct Return Delinquency Notice Program operations toward the
           attainment of desired objectives.
           A. Determined whether IRS management had developed a clear statement of the Return
              Delinquency Notice Program objectives against which the annual Program results
              could be effectively measured.
           B. Determined whether the annual performance goals for the Return Delinquency Notice
              Program were objective and quantifiable, and included measurement criteria such as
              cost, quality, and timeliness.
           C. Determined whether the objectives and annual performance goals established for the
              Return Delinquency Notice Program reflect the strategic goals and mission of the
              IRS.
           D. Determined whether the activity-level objectives flowed from and were linked to the
              overall return delinquency objectives and strategic plans.
           E. Evaluated the process for determining how many return delinquency cases will be
              created each year and how many resources will be allotted to the Return Delinquency
              Notice Program each year.



1
    The CSCO was formerly called the Service Center Collection Branch.
                                                                                           Page 30
       The Return Delinquency Notice Program Could Be Used More Effectively to
                  Promote Filing Compliance and Reduce the Tax Gap

        F. Assessed whether sufficient resources were allotted to the Return Delinquency Notice
           Program to achieve Program objectives.
        G. Evaluated the basis for the selection codes and other prioritization criteria the IRS
           uses to generate return delinquency notices.
II.     Assessed the adequacy of the means, methods, and management information systems the
        IRS uses to monitor and evaluate the Return Delinquency Notice Program results.
        A. Obtained and evaluated internal documents that reflect IRS management’s
           assessments of the Return Delinquency Notice Program.
        B. Identified and evaluated the performance standards, information sources, and
           performance indicators IRS management uses to measure the effectiveness of the
           Return Delinquency Notice Program.
        C. Evaluated whether the performance standards and indicators for the Return
           Delinquency Notice Program adequately reflect the intended program results and
           provide a comprehensive measure of effectiveness.
        D. Determined how IRS management uses and adjusts work standards and
           measurements to achieve the overall Return Delinquency Notice Program objectives.
        E. Determined whether the IRS identifies the necessary data to routinely assess the
           performance of the Return Delinquency Notice Program, including a mixture of
           outcome, output, and efficiency measures linked to the Return Delinquency
           Program’s strategic goals.
        F. Determined whether sufficient management controls have been developed to ensure
           the timely and quality delivery of the Return Delinquency Notice Program by the
           campus sites.
III.    Assessed the actions IRS management has taken or planned to further improve the
        effectiveness and efficiency of the Return Delinquency Notice Program to close the
        return filing gap.
        A. Gathered and evaluated IRS management information reports and studies about return
           filing noncompliance.
        B. Determined whether IRS assessments of the Return Delinquency Notice Program
           showed the effectiveness of the various return filing delinquency selection categories
           and whether the Program produced the overall intended results.
        C. Determined whether the Program assesses whether the processes used affect any
           taxpayer behavioral changes.
        D. Determined whether the IRS has a risk assessment plan that considers relevant
           sources of risk (internal and external), undertakes a thorough and complete analysis
           of the possible effects, and establishes a control structure to address those risks.
                                                                                            Page 31
     The Return Delinquency Notice Program Could Be Used More Effectively to
                Promote Filing Compliance and Reduce the Tax Gap

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
William E. Stewart, Audit Manager
E. John Thomas, Lead Auditor
Timothy F. Greiner, Senior Auditor
Lawrence R. Smith, Senior Auditor




                                                                                       Page 32
     The Return Delinquency Notice Program Could Be Used More Effectively to
                Promote Filing Compliance and Reduce the Tax Gap

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Deputy Director, Compliance Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Filing Compliance, Small Business/Self-Employed Division SE:S:C:CP:FC
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Director, Office of Legislative Affairs CL:LA
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 33
           The Return Delinquency Notice Program Could Be Used More Effectively to
                      Promote Filing Compliance and Reduce the Tax Gap

                                                                                          Appendix IV


                                                Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
       •    Increased Revenue – Potential; $87,340,500 per year; $436.7 million over 5 years
            (see page 12).
Methodology Used to Measure the Reported Benefit:
The increased revenue projection is based on the premise that other nonfiler selection code (SC)
categories offer the potential for significant additional revenue in comparison to Federal
Employee/Retirees Delinquency Initiative (FERDI) cases selected by the Wage and Investment
(W&I) Division and that significant numbers of FERDI cases could be given less-comprehensive
compliance treatments. Under this premise, rather than all FERDI nonfiler cases being handled
through the Automated Substitute for Return (ASFR) Program, only the ones with significant
risks would receive this treatment. Other FERDI cases would receive less resource-intensive
compliance treatments such as Taxpayer Delinquency Investigation notices,
Primary Code B notices, or reminder notices, which would need to be developed, for refund
cases.
The volume of FERDI nonfiler cases for future years was based upon Internal Revenue Service
(IRS) data on the number of FERDI case for Tax Year (TY) 2002, which will be processed in
Fiscal Year (FY) 2004. Reliable annual growth rates for the FERDI nonfiler SC categories could
not be determined, although there was a definite upward trend in the number of FERDI cases
from TY 2000 to TY 2002. The volume of FERDI nonfiler cases was 109,868 for TY 1999,
106,566 for TY 2000, 108,987 for TY 2001, and 116,064 for TY 2002.
Based on the average net tax due1 per return for TY 2001 shown on IRS treatment reports,
Table 1 shows the potential net tax due for the W&I Division TY 2002 SC categories that
offered significantly higher revenue potential than W&I Division FERDI cases but were not
worked by the IRS.




1
    Net tax due represents tax, penalty, and interest assessments less prepaid credits.
                                                                                               Page 34
        The Return Delinquency Notice Program Could Be Used More Effectively to
                   Promote Filing Compliance and Reduce the Tax Gap

        Table 1: W&I Division Cases Not Worked With Higher Tax Potential Than W&I FERDI Cases
                                               TY 2002
  Case        Cases Worked         Cases Not Worked        Average Net Tax        Total Potential Net Tax Due
Selection                                                  Due Per Return            of Cases Not Worked
  Code
                    (A)                    (B)                     (C)                      (B) X (C)

   09             338,767                 66,762                $1,352                  $ 90,262,224
   14                     0             778,300                 $ 970                   $754,951,000
   04              54,559                  2,984                $ 895                   $    2,670,680
   13             757,449                    789                $ 808                   $      637,512
 Total          1,150,775               848,835                                         $848,521,416
Source: Treasury Inspector General for Tax Administration (TIGTA) Analysis of IRS TY 2001 Nonfiler
Effectiveness Report (January 6, 2004) and W&I Division TY 2002 Nonfiler Inventory Selection Report.

Of the 848,835 cases from Table 1 that were not worked, the total potential net tax due of the
75,228 highest-valued cases is $98,474,244 or an average of $1,309 per case. If the
W&I Division had worked these cases in lieu of the 75,228 FERDI cases, potential additional
revenue of $87,340,500 may have been realized ($98,474,244 less the $11,133,744 value of the
FERDI cases). Assuming the numbers of FERDI nonfiler cases and other SC category cases
remain constant over the next 5 years, the 5-year value of working the higher-value SC category
cases, in lieu of the FERDI nonfiler cases, is $436,702,500 (5 x $87,340,500). This amount may
represent the upper limit of the potential increased revenue since some higher-value FERDI
nonfiler cases would still be worked and the average net tax due per case can vary for cases
within each SC category. Conversely, this amount may be conservative since the total number of
FERDI cases increased by about 9 percent from TY 2000 to TY 2002.
For TY 2002, the W&I Division selected 75,228 FERDI cases that received ASFR compliance
treatments. The W&I Division’s nonfiler treatment reports for TY 2001 showed the average net
tax due per FERDI case was $148 as of January 6, 2004. Table 2 uses TY 2002 nonfiler
inventory data and TY 2001 average-net-tax-due-per-return data to show the total potential net
tax due of the 75,228 next highest (after considering Table 1 data) valued TY 2002 nonfiler cases
that were not worked.




                                                                                                        Page 35
      The Return Delinquency Notice Program Could Be Used More Effectively to
                 Promote Filing Compliance and Reduce the Tax Gap

           Table 2: Cases Not Worked With Higher Tax Potential Than W&I Division FERDI Cases
                                               TY 2002
   Case         Cases Worked             Cases Not          Average Net Tax     Total Potential Net Tax Due
 Selection                                Worked            Due Per Return         of Cases Not Worked
   Code
                      (A)                   (B)                   (C)                    (B) X (C)

    09             338,767                 66,762               $1,352                 $90,262,224
    14                       0              8,466               $ 970                  $ 8,212,020
  Totals           338,767                 75,228               $1,309                 $98,474,244
Source: TIGTA analysis of the W&I Division’s TY 2002 Nonfiler Inventory Selection Codes and the W&I Division’s
TY 2001 Nonfiler Effectiveness Report.

Table 3 combines data for TY 2002 nonfiler cases with higher tax potential than FERDI cases
that were not worked by the W&I Division (see Table 2) with the data for the FY 2002 FERDI
cases that were worked by the W&I Division, to arrive at the potential net tax due for the
75,228 highest valued cases that were not worked. The estimates of total potential net tax due
are shown for 1-year and 5-year periods.
           Table 3: Computation of Potential Additional Net Tax Due in Nonfiler Cases Not Worked
                                         W&I Division Cases Only
                                  Cases      Cases Not      Average Net Tax     Total Potential Net Tax Due
                                 Worked       Worked        Due Per Return         of Cases Not Worked
                                   (A)            (B)              (C)
 SC 09 and 14 Cases              338,767      75,228             $1,309                $ 98,474,244
                                                                                         (B) X (C)
 Less: Value of TY 2001           75,228                0        $ 148                 $ 11,133,744
 W&I FERDI Cases
                                                                                         (A) X (C)
 1-Year Value of Potential                                       $1,161                $ 87,340,500
 Additional Net Tax Due
 5-Year Value of Potential                                                             $436,702,500
 Additional Net Tax Due
Source: TIGTA analysis.




                                                                                                      Page 36
      The Return Delinquency Notice Program Could Be Used More Effectively to
                 Promote Filing Compliance and Reduce the Tax Gap

                                                                                     Appendix V


                                      Glossary of Terms

6020(b) Program – Internal Revenue Code Section 6020(b) gives the Internal Revenue Service
(IRS) the authority to prepare and process returns for nonfiling taxpayers. The 6020(b) Program
prepares and processes Employer’s Quarterly Federal Tax Return (Form 941) or Employer’s
Annual Federal Unemployment Tax Return (Form 940).
Area Office – A geographic sub-section of the business operating division. Employees assigned
to Area Offices generally perform the IRS compliance activities that involve face-to-face
interaction with taxpayers.
Automated Collection System (ACS) – The ACS is a telephone contact function where
assistors attempt to secure nonfiled tax returns from taxpayers that have not responded to the
initial notices and/or do not meet the criteria for Automated Substitute for Return (ASFR)
Program assignment.
Automated Substitute for Return Program – The ASFR Program is an automated deficiency
assessment process for nonfiled individual income tax returns. A notice of proposed assessment,
based on information return data, is sent to the taxpayer. Taxpayers may respond to the proposed
assessment notice by filing a return, explaining why they are not liable to file, or agreeing to the
assessment as proposed or with changes to the filing status and/or the number of dependents.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the computing centers for analysis and posting to
taxpayer accounts.
Compliance Services Collection Operations (CSCO) – The CSCO handles taxpayer responses
to return delinquency notices. Those cases that are not resolved may be referred to the
ASFR Program, the ACS, or the Collection Field function (CFf) for further action.
Collection Field function - The CFf is the unit in Area Offices consisting of revenue officers
who handle personal contacts with taxpayers to collect delinquent accounts or secure nonfiled
returns. A return delinquency case assigned to the CFf is either placed in the queue (i.e.,
unassigned inventory) or assigned to a revenue officer for potential face-to-face contact with the
taxpayer.
Federal Employees/Retirees Delinquency Initiative (FERDI) - The FERDI is the IRS
program to identify Federal Government employees and retirees that fail to comply with Federal
tax laws. The FERDI includes both active and retired civil service and military employees.




                                                                                            Page 37
     The Return Delinquency Notice Program Could Be Used More Effectively to
                Promote Filing Compliance and Reduce the Tax Gap

Full-Time Equivalent (FTE) - An FTE is a measure of labor hours. One FTE is equal to
8 hours multiplied by the number of compensable days in a particular fiscal year. For
Fiscal Year 2002, for example, 1 FTE was equal to 2,088 staff hours.
Service Center Examination Branch (SCEB) – The SCEB located in IRS campuses uses
correspondence examination techniques to verify the accuracy of uncomplicated tax returns with
straightforward issues.




                                                                                        Page 38
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap

                                                                  Appendix VI


              Management’s Response to the Draft Report




                                                                          Page 39
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap




                                                                          Page 40
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap




                                                                          Page 41
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap




                                                                          Page 42
The Return Delinquency Notice Program Could Be Used More Effectively to
           Promote Filing Compliance and Reduce the Tax Gap




                                                                          Page 43
